\
'v

*

s

H

A

A,.

20-784-cv
Kampfer v. Argotsinger

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of
New York, on the 7th day of April, two thousand twenty-one.
PRESENT:
DEBRA ANN LIVINGSTON,
Chief Judge,
RICHARD C. WESLEY,
SUSAN L. CARNEY,
Circuit Judges.
Douglas E. Kampfer,
Plaintiff-Appellant,
20-784

v.
Richard Argotsinger, Town of Mayfield, Town
Supervisor and Board Member, Jack Putman,
Town of Mayfield, Town Councilman, Steven
Van Allen, Town of Mayfield, Town
Councilman, Thomas Ruliffson, Town of
Mayfield, Town Councilman, Vincent Coletti,
Town of Mayfield, Town Councilman,
Defendants-Appellees.

V

FOR PLAINTIFF-APPELLANTS:

Douglas E. Kampfer, pro se,
Mayfield, NY.

FOR DEFENDANTS-APPELLEES:

Corey A. Ruggiero, Johnson
& Laws, LLC, Clifton Park,
NY.

Appeal from a judgment of the United States District Court for the Northern District of
New York (Kahn, J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED.
*'■* \\

Douglas Kampfer, pro se, sued several Board members of the Town of Mayfield (the
“Town”)—Jack Putman, Thomas Ruliffson, Steven Van Allen, and Vincent Coletti—as well as
Town Supervisor Richard Argotsinger (collectively, the “Defendants”) under 42 U.S.C. § 1983.
Kampfer alleges that they violated his constitutional rights under § 1983 by failing to provide him
with a written appointment when he replaced the Town’s Dog Control Officer (“DCO”) midway
through that officer’s one-year term and by declining to reappoint him for a subsequent term
without affording him notice and a hearing. The Defendants moved for summary judgment,
arguing, among other things, that they did not violate Kampfer’s procedural or substantive due
process rights because he did not have a property interest in the DCO position. Kampfer crossmoved for summary judgment, arguing that state law created such a property interest. The district
court granted summary judgment to the Defendants and Kampfer appealed. We assume the
parties’ familiarity with the underlying facts, the procedural history of the case, and the issues on
appeal.
I.

Waiver
As an initial matter, Kampfer does not address the district court’s grant of summary

• o'

judgment to the Defendants on his First, Seventh, and Eighth Amendment claims in his brief, and
he has therefore waived any challenge to the district court’s ruling.

LoSacco v. City of

Middletown, 71 F.3d 88, 92-93 (2d Cir. 1995). Kampfer argues—for the first time on appeal—
that the Oath of Office he signed following his appointment constituted a contract that created a
property interest in his position, and that the DCO is a law enforcement officer under state law.
We decline to address these new arguments because “it is a well-established general rule that an
appellate court will not consider an issue raised for the first time on appeal.” Greene v. United
States, 13 F.3d 577, 586 (2d Cir. 1994). In addition, Kampfer does not challenge the district
court’s conclusion that he had only a unilateral expectation of continued employment and did not
have a property interest in the DCO position pursuant to any statute or contract. As a result,
Kampfer’s only remaining challenges on appeal—to the extent he raises any viable arguments—
are that his procedural due process rights were violated because he was not given notice and a
hearing before he was “discipline[d],” and that his substantive due process rights were violated
because he had a “fundamental property interest” in his position as a public employee.

l

Appellant’s Br. at 12-13.
II.

Merits
We review a grant of summary judgment de novo, “resolv[ing] all ambiguities and

drawing] all inferences against the moving party.” Garcia y. Hartford Police Dep’t, 706 F.3d
■y

120, 126-27 (2d Cir. 2013) (per curiam). “Summary judgment is proper, only when, construing

l

Kampfer also argues that the district court “failed to consider” his cross-motion for summary
judgment. Appellant’s Br. at 6. This argument is meritless. The district court’s decision
referenced his submissions and addressed his arguments concerning his cross-motion.
3

v ..{•

the evidence in the light most favorable to the non-movant, ‘there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law.’” Doninger v. Niehoff,
642 F.3d 334, 344 (2d Cir. 2011) (quoting Fed. R. Civ. P. 56(a)). Further, to advance a claim
pursuant to § 1983, a plaintiff must establish that an alleged deprivation “was committed by a
person acting under color of state law.” Naumovski v. Norris, 934 F.3d 200, 212 (2d Cir. 2019)
(citation omitted). And “Section 1983 is not itself a source of substantive rights, but merely
provides a method for vindicating federal rights elsewhere conferred. The first step in any such
claim is to identify the specific constitutional right allegedly infringed.” Albright v. Oliver, 510
U.S. 266, 271 (1994) (internal quotation marks and citation omitted);
A. Procedural Due Process
Kampfer argues generally on appeal, as he did before the district court, that the Defendants
violated the Fourteenth Amendment’s guarantee of procedural due process when they failed to
afford him notice and a hearing before deciding not to reappoint him as a DCO at a December
2017 meeting. To state a § 1983 procedural due process claim, a plaintiff must “first identify a
property right, second show that the government has deprived him [or her] of that right, and third
show that the deprivation was effected without due process.” J.S. v. T’Kach, 714 F.3d 99, 105 (2d
Cir. 2013) (alteration and citation omitted). “In the employment context, a property interest arises
only where the state is barred, whether by statute or contract, from terminating (or not renewing)
the employment relationship without cause.” S & D Maint. Co. v. Goldin, 844 F.2d 962, 967 (2d
Cir. 1988).
As noted above, Kampfer does not challenge the district court’s conclusion that he
possessed no statutory basis for his property interest in continued employment as a DCO, and he
4

V

argued in district court that he had no contract with the Town.2 Without such a property interest
in continued employment, his-procedural due process claim failed, and the Town was free to
terminate him without cause and without a hearing; See Bd, of Regents of State Colls, v. Roth,
408 U.S. 564, 578 (1972) (holding that where a public employee’s appointment terminated on a
particular date and there was no provision for renewal after that date, the employee “did not have
a property interest sufficient to require ... a hearing when [the officials] declined to renew his
contract of employment.”). The district court therefore properly granted summary judgment to
the Defendants, finding that there was no genuine factual issue regarding Kampfer’s procedural
due process claim, and his argument on appeal is meritless.
B. Substantive Due Process
Kampfer next argues on appeal that the Defendants’ decision not to reappoint him violated
substantive due process because he had a “fundamental property interest” in the DCO position that
the Defendants infringed in an “arbitrary” fashion. Appellant’s Br. at 12.

Substantive due

process protects against “certain government actions regardless of the fairness of the procedures
used to implement them[.]” Cnty. of Sacramento v. Lewis, 523 U.S. 833, 840 (1998) (citation
omitted). But a plaintiff claiming a substantive due process violation based on arbitrary state
action must first show that he or she had a valid property interest. Royal Crown Day Care LLC
v. Dep’t ofHealth & Mental Hygiene ofCityofN.Y., 746 F.3d-538, 545 (2d Cir. 2014) (explaining
that in order to demonstrate a substantive due process violation based on arbitrariness, the plaintiff
must show that he or she “(1) had a valid property interest...; and (2) defendants infringed on

2 Kampfer asserted in his cross-motion for summary judgment that he had neither an oral nor a
written contract with the Town.
5

V

\

that property right in an arbitrary or irrational manner.” (internal quotation marks and citation
omitted)). Thus, where the plaintiff “possessed no protective property interest . . . , it would
appear obvious” that any deprivation “in no way violated ... [plaintiff s] substantive due process
rights[.]” Local 342, Long Island Pub. Serv. Emps., UMD, ILA, AFL-CIO v. Town Bd. of
Huntington, 31 F.3d 1191, 1196 (2d Cir. 1994). Kampfer had no property interest, fundamental
or otherwise, in the DCO position and, consequently, his not being reappointed could not have
been arbitrary or conscience-shocking. See id.; Royal Crown Day Care LLC, 746 F.3d at 545.
The district court therefore properly granted the Defendants summary judgment on Kampfer’s
substantive due process claim.
We have considered Kampfer’s remaining arguments and find them to be without merit.
Accordingly, we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

•• V

t

?

■4i'4T

6

s

V.
s

\

Case l:18-cv-00007-LEK-ATB

Document 95

Filed 02/25/20 Page 1 of 23

£
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
DOUGLAS E. KAMPFER,
Plaintiff,
1T8-CV-0007 (LEK/ATB)

-againstRICHARD ARGOTSINGER, et al.,
Defendants.

MEMORANDUM-DECISION AND ORDER
I.

INTRODUCTION
Plaintiff Douglas Kampfer lives in Mayfield, New York (“Mayfield” or the “Town”),

where defendant Richard Argotsinger serves as Town Supervisor and sits on the Mayfield Town
Board (the “Town Board” or the “Board”) along with defendants Vincent Coletti, Jack Putman,
Thomas Ruliffson, and Steven Van Allen (collectively, “Defendants”). Dkt. No. 39 (“Amended
Complaint”). Plaintiff sues under 42 U.S.C. § 1983, alleging that Defendants violated his
constitutional rights during a series of events surrounding his appointment and tenure as
Mayfield’s Dog Control Officer. Id He seeks declaratory relief and damages. Id. at 1, 2, 12.
Defendants have moved for summary judgment under Federal Rule of Civil Procedure
(“FRCP”) 56. Dkt. Nos. 86 (“Defendants’ SJ Motion”); 86-19 (“Defendants’ Memorandum”);
86-20 (“Defendants’ Statement of Material Facts” or “Defendants’ SMF”). Plaintiff has opposed
Defendants’ motion and cross-moves for summary judgment in his own right. Dkt. Nos. 87
(“Plaintiffs SJ Motion”); 87-2 (“Plaintiffs Statement of Material Facts” or “Plaintiffs SMF”);
87-3 (“Plaintiffs Memorandum”); 87-4 (“Response to Defendants’ SMF”). Defendants have
filed a reply in further support of their summary judgment motion and opposing Plaintiffs

V
Case l:18-cv-00007-LEK-ATB Document 95

Filed 02/25/20

Page 2 of 23

summary judgment motion. Dkt. No. 88 (“Defendants’ Reply”). For the following reasons, the
Court grants Defendants’ summary judgment motion and denies Plaintiff s.
II.

BACKGROUND
A. Factual Background
The following facts are taken primarily from Defendants’ Statement of Material Facts, as

Plaintiff admitted most of the facts in Defendants’ SMF, see Resp. to Defs.’ SMF, and Plaintiffs
purported SMF offered in support of his own summary judgment motion is two pages and
consists largely of legal conclusions, see Pi’s. SMF. The facts are undisputed unless otherwise
noted.
Until his retirement in 2015, Plaintiff worked as Town of Mayfield cemetery caretaker, a
position to which he was appointed annually by the Town Board. Defs’ SMF

1, 2. In

Mayfield, several town positions are filled each year upon appointment of the board at an annual
“organizational meeting” in early January. Id. fflf 9, 24-27, 30-31. Though Plaintiff denies that
he attended any “organizational meetings,” he admits that, in connection with the cemetery
caretaker role, he attended seven January Board meetings in which the Board would authorize
his position as cemetery caretaker. Id, ^ 9.
In June of 2017, Plaintiff applied for a position as Mayfield’s Dog Control Officer. Id.
3. For at least several years prior to 2017, Mayfield’s Dog Control Officer had been appointed
to one-year terms by the Town Board at the annual organizational meeting.1 Id. ^ 24-27. For
example, a woman named Jane Potts served as Dog Control Officer in 2014, and after her

1 Defendants also point out that there is no evidence in the record that anyone has ever
been appointed Mayfield Dog Control Officer for more than a one-year term. Id, ^ 64.
2

V

Case l:18-cv-00007-LEK-ATB

Document 95

Filed 02/25/20 Page 3 of 23

appointment expired at the end of the year, the Town Board appointed a woman named Nancy
Parker in her stead. Id. fflf 24-25. Parker was reappointed several times. Id ^ 26-27.
On January 5, 2017, at that year’s organizational meeting, the Board appointed Parker to
the Dog Control Officer position for a one-year term expiring on December 31, 2017. Id. | 27.
Then, in February 2017, Parker was appointed to the position of Mayfield town clerk. Dkt. No.
86-18 (“Parker Declaration”) Tf 4. In order to focus full-time on her new duties, Parker resigned
as Dog Control Officer, effective August 11, 2017. Id. ]f 8; Defs.’ SMF ^ 28, 29. Prior to the
effective date of Parker’s resignation, the Town Board began looking for a replacement dog
control officer. After the Board received Plaintiffs application for the position in June, they
appointed him dog control officer at the July 11, 2017 Board meeting. Id. ^ 15, 29.
And here lies the crux of this dispute: the duration of Plaintiff s appointment. Defendants
insist that Plaintiff was appointed merely to serve out the remainder of Parker’s term, i.e., from
August 11, 2017 to December 31, 2017, id. U 29, whereas Plaintiff understood his appointment to
be permanent, id. f 59. Plaintiff understood this to be so because he never received a letter of
appointment clarifying the duration of his term in office, id.

60.2 In support of his position,

Plaintiff points out that the minutes from the July 11, 2017 board meeting say only that the
“Board approve[d] the appointment of Douglas Kampfer as Dog Control Officer” and say
nothing about a duration of employment. Pl.’s Resp. to Defs.’ SMF f 29. However, in their
sworn declarations, Defendants state that they intended and understood Plaintiffs appointment to
last only to the end of Parker’s term. Dkt. Nos. 86-13 (“Argotsinger Declaration”)

2 For their part, Defendants point out that Plaintiff never requested a letter of
appointment. Id. ‘f 56.
3

16-17; 86-

V

Case l:18-cv-00007-LEK-ATB Document 95

14 (“Putnam Declaration”)

Filed 02/25/20

Page 4 of 23

15-16; 86-15 (“Van Allen Declaration”) fflj 15-16; 86-16

(“Ruliffson Declaration”) Tflf 15-16; 86-17 (“Coletti Declaration”)

15-16.

Further, Defendants point out that, after receiving his appointment as Dog Control
Officer, Plaintiff signed an “Oath of Office” form that, as submitted to the Court, lists the dates
of Plaintiff s appointment “from 8/11/17 to 12/31/17.” Defs.’ SMF fflj 16-18; Dkt. No. 86-6
(“Minutes of July 11, 2017 Board Meeting”) at 6. But Plaintiff insists that the dates were not
written on the oath form when he signed it. Dkt. No. 86-10 (“Kampfer Deposition”) at 160.
Regardless, it is undisputed that no town official told Plaintiff “that there was going to be any
change regarding the Dog Control Officer position,” Defs.’ SMF

19, and that, when Plaintiff

left the Board meeting on July 11, 2017, he understood that he had replaced Parker as Dog
Control Officer, id. f 22. Plaintiff then began working as Dog Control Officer. See Am. Compl.
at 5.
On August 18, 2017, Parker gave Plaintiff a proposed independent contractor agreement
(“Agreement”) related to his work as Dog Control Officer. Id. T| 39. The agreement stated that
Plaintiff would serve as Dog Control Officer from July 11, 2017 to December 31, 2017. Id. H 40;
Dkt. No. 86-11 (“Independent Contractor Agreement”). However, Plaintiff refused to sign the
Agreement. Defs.’ SMF Tj 43.
Also sometime in August, Plaintiff attended an executive session of the Town Board in
which the Board asked him to “slow down the work he was doing” because he was requesting
more travel reimbursements than the town had budgeted for. Id,

34; Kampfer Depo. at 65. At

this same meeting, the Board also told Plaintiff that a letter he had written in his capacity as Dog
Control Officer to certain town citizens was “inappropriate.” Defs.’ SMF
responded that he thought the letter was appropriate. Id, f 36.

35-36. Plaintiff

C£.

Case l:18-cv-00007-LEK-ATB

Document 95

Filed 02/25/20

Page 5 of 23

Plaintiff apparently continued to discharge his duties as dog control officer for the
remainder of the year, without incident, and was paid accordingly. Id.

43—44. Near the end of

the year, in December 2017, Plaintiff received a letter from the Town Board informing him that
his appointment as Dog Control Officer would end on December 31, 2017 and that he would not
be reappointed. Id. ^ 45. The Board had made this decision at an executive session held on
December 12, 2017. Id. The letter further asked Plaintiff to return any town equipment he had in
relation to his Dog Control Officer role, which he subsequently did on January 1 or 2, 2018. Id,
54. Plaintiff was paid in full for the work he did as Dog Control Officer from August 11, 2017
to December 31, 2017. Id. Tf 44.
Following the expiration of Plaintiff s term as Dog Control Officer, at the January 1,
2018 organizational meeting the Board appointed Karen Wilson as Dog Control Officer for a
one-year term expiring on December 31. 2018. Id. f 30.
Those are essentially the facts, though one other point bears mentioning here. Plaintiff
alleges in his Amended Complaint that asking him to sign the independent contractor agreement
“was a violation of. . . New York[‘s] Agriculture and Markets Law,” and that, on August 18,
2017, he filed a “formal complaint” about this alleged violation with the office of the New York
State Attorney General (the “AG Complaint”). Am. Compl. at 6. However, because Plaintiff has
apparently taken no discovery in this case,3 and has submitted minimal evidence in support of his
motion for summary judgment, see generally Pl.’s SMF, the Court has no evidence about the AG
Complaint other than the allegations in the Amended Complaint. Plaintiff himself does not know

3 See Defs.’ Mem. at 2 (“[Djuring this action Plaintiff failed to conduct a single
deposition or demand a single document. . . from any named defendant - despite his knowledge
and the Court’s reminders to him that he had the right to do so.”).
5

V

Case l:18-cv-00007-LEK-ATB

Document 95

Filed 02/25/20 Page 6 of 23

if the Attorney General’s office ever followed up on this complaint or contacted any town
official about it. Defs.’ SMF

65.

B. Relevant Procedural History
On January 2, 2018, two days after his term as Dog Control Officer expired, Plaintiff
filed this suit. Dkt. No. 1 (“Complaint”). Then, on July 12, 2018, he filed the Amended
Complaint, which the Court declared to be the operative pleading on August 31, 2018. Dkt. Nos.
48, 53.
For the sake of judicial economy, the Court notes that the remainder of this case’s
procedural history leading up to the instant summary judgment motions consists primarily of
Plaintiff filing frivolous motions, see, e.g.. Dkt. Nos. 58, 64 (attempting to add the Honorable
Andrew T. Baxter, the presiding United States Magistrate Judge in this case, to Plaintiffs
witness list), and attempting avoid sitting for his deposition, see, e.g.. Dkt. Nos. 53, 68, 79. The
Court takes this opportunity to commend Judge Baxter for his speedy, fair, and patient resolution
of many of these motions.
Finally, after eventually deposing Plaintiff on December 19, 2018, Defendants moved for
summary judgment on March 1, 2019. See Defs.’ SJ Mot. Plaintiff filed his cross-motion on
March 11, 2019. See Pl.’s SJ Mot. The Court notes here that Plaintiffs summary judgment
motion is supported by only one page of legal argument and a few sparse evidentiary exhibits.
See Pl.’s Mem., Exs. A-B; Pl.’s SMF. For this reason, the following discussion focuses
primarily on Defendants’ summary judgment motion and arguments.
C. Plaintiffs Claims
The Amended Complaint contains four causes of action: (1) Defendants violated
Plaintiffs Fifth and Fourteenth Amendment procedural and substantive due process rights by

6

Case l:18-cv-00007-LEK-ATB

Document 95

Filed 02/25/20 Page 7 of 23

failing to provide him with notice and a hearing related to the cessation of his position as Dog
Control Officer; (2) Defendants retaliated against Plaintiff in violation of the First Amendment
because he complained to the New York Attorney General about the “illegal” independent
contractor agreement; (3) Defendants’ actions “so shock[] the conscience of a person[] that the
Defendant(s) ... are liable to the plaintiff under the Seventh Amendment. . .”; and (4)
Defendants’ actions constitute “cruel and unusual punishment” in violation of the Eighth
Amendment. Am. Compl. at 9-11.
Plaintiff seeks declaratory relief clarifying “what Procedural Due Process rights . .. must
be applied .. . before [Plaintiff] ... can be deprived of’ “any appointments or wages.” Id at 2.
Specifically, he asks the Court to clarify whether procedural due process guarantees him notice
and a hearing regarding the Board’s decision not to reappoint him, whether the Board violated
his rights by failing to give him a “written [appointment,” and whether he was illegally deprived
of wages after December 31. 2017. Id.
Further, the Amended Complaint initially contained a request that the Court declare
whether a public official who commits a civil rights violation can be assessed punitive damages
or even be held liable criminally. Id. at 3. However, with approval of the Court, Plaintiff
subsequently withdrew these requests for declaratory relief. Dkt. Nos. 53, 54.
Finally, Plaintiff asks for costs and a hearing on damages subsequent to any trial on the
merits. Id. at 12.
III.

LEGAL STANDARD
FRCP 56 instructs courts to grant summary judgment if “there is no genuine dispute as to

any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). A fact is “material” if it “might affect the outcome of the suit under the governing law,”

7

Case l:18-cv-00007-LEK-ATB Document 95

Filed 02/25/20 Page 8 of 23

and a dispute is “‘genuine’ ... if the evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson v. Liberty Lobby, Inc.. 477 U.S. 242, 248 (1986).
Thus, while “[fjactuai disputes that are irrelevant or unnecessary” will not preclude summary
judgment, “summary judgment will not lie if. .. the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Id.; see also Taggart v. Time, Inc„ 924 F.2d 43, 46 (2d
Cir. 1991) (“Only when no reasonable trier of fact could find in favor of the nonmoving party
should summary judgment be granted.”).
The party seeking summary judgment bears the burden of informing the court of the basis
for the motion and identifying those portions of the record that the moving party claims will
demonstrate the absence of a genuine issue of material fact. Celotex Corp. v. Catrett. 477 U.S.
317, 323 (1986). Similarly, a party is entitled to summary judgment when the nonmoving party
has failed “to establish the existence of an element essential to that party’s case, and on which
that party will bear the burden of proof at trial.” Id. at 322.
In attempting to repel a motion for summary judgment after the moving party has met its
initial burden, the nonmoving party “must do more than simply show that there is some
metaphysical doubt as to the material facts.” Matsushita Elec. Indus. Co. v. Zenith Radio Corn.,
475 U.S. 574, 586 (1986). At the same time, a court must resolve all ambiguities and draw all
reasonable inferences in favor of the nonmoving party. Reeves v. Sanderson Plumbing Prods.,
Inc., 530 U.S. 133, 150 (2000). Thus, a court’s duty in reviewing a motion for summary
judgment is “carefully limited” to finding genuine disputes of fact, “not to deciding them.” Gallo
v. Prudential Residential Servs., Ltd. P’ship, 22 F.3d 1219, 1224 (2d Cir. 1994).

8

Case l:18-cv-00007-LEK-ATB Document 95

IV.

Filed 02/25/20 Page 9 of 23

DISCUSSION
The Court addresses in turn: (A) two preliminary matters; (B) the merits of Defendants’

summary judgment motion as to each of Plaintiff s claims; and (C) a few final loose ends.
A. Preliminary Matters
1. Waiver ofArguments
In their Reply, Defendants urge the Court to find that Plaintiff has “consented” to the
arguments Defendants made in their summary judgment briefing. Defs.’ Reply at 2. This is
because “Plaintiff. . . failed to offer any arguments whatsoever in opposition to Defendants’
Motion and, instead, merely asserts a cross-motion” that consists of a “one and a half page
‘argument’ . . . ‘supported’ solely by conclusory statements and two factually distinguishable
and legally inapplicable cases ....” Id, at 1-2; see also Pl.’s Mem. at 4 (citing Cleveland Bd. of
Educ. v. Loudermill, 470 U.S. 532 (1985) and Kampfer v. Jacob DaCorsi, 6 N.Y.S.3d 680 (3rd
Dept. 2015)) (containing the sum total of Plaintiff s argument on summary judgment).
Defendants point out that, in similar circumstances, courts in this district generally deem the
litigant who has failed to respond as “consenting” to the opposing party’s arguments. Defs.’
Reply at 2 (citing Robert H. Law. Inc, v. Woodbine Bus. Park, Inc., No. 13-CV-1393, 2018 WL
851382, at *10 (N.D.N.Y. Feb. 12, 2018) (“[Wjhere a non-movant has failed to respond to a
movant’s properly filed and facially meritorious memorandum of law, the non-movant is deemed
to have “consented” to the legal arguments contained in that memorandum of law ....”) (other
citations omitted)). Moreover, pointing to Plaintiffs extensive history of filing lawsuits,4
Defendants argue that the Court should disregard Plaintiffs pro se status in this case, because

4 Defendants have identified twenty-eight cases apparently filed by Plaintiff in both state
and federal court since 2005. Defs.’ Reply at 4 n.l.
9

Case l:18-cv-00007-LEK-ATB

Document 95

Filed 02/25/20

Page 10 of 23

Plaintiff is an “experienced” litigant who “do[es] not enjoy the same ‘special solicitude’ afforded
to other pro se litigants.” Defs.’ Reply at 3 (citing Shaheen v. McIntyre. No. 05-CV-173, 2007
WL 3274835, at *7 (N.D.N.Y. Nov. 5, 2007) (“revok[ingj” pro se plaintiffs “special status”
because he had filed “at least twenty other federal court actions . . . and at least four state court
actions” over the previous twenty years).
Defendants’ points are well-taken, however the Court is chary of granting so drastic a
remedy as deeming Plaintiff to have consented to Defendants’ Motion. In any event, as described
below, the Court finds that Plaintiffs claims fail on the merits. As for whether to strip Plaintiff
of the special status he enjoys as a pro se litigant, since Plaintiffs claims fail on the merits, the
Court declines to wade through the twenty-eight prior cases Defendants have identified to
determine if they really were filed by Plaintiff, if Plaintiff proceeded pro se, and whether
Plaintiff was victorious. See id (listing factors courts consider when deciding whether to grant a
pro se litigant “special solicitude”). Plaintiff has occupied enough of the Court’s time as it is.
2. Individual vs. Official Capacity
There appears to be some uncertainty as to whether Plaintiff sues Defendants in their
individual or official capacities. For example, in the caption of the Amended Complaint, after the
name of each defendant, Plaintiff has written “[individual capacity,” Am. Compl. at 1, but later
under each cause of action he lists each defendant “in their individual and in their official
capacity,” id. at 9-11. Also, in his deposition, Plaintiff agreed that he was suing the five
members of the Town Board listed above and confirmed that he was not suing the Town of
Mayfield itself. Kampfer Depo. at 109-10. This testimony, along with Plaintiffs earlier filings
with the Court, see Dkt. No. 64 (letter to the Court stating that “Plaintiff is not suing the
Municipality the Town of Mayfield . . . [but] is suing the Defendants in their individual

10

Case l:18-cv-00007-LEK-ATB Document 95

Filed 02/25/20

Page 11 of 23

capacities”), formed the basis of Defendants’ observation in their statement of material facts that
“Plaintiff... is suing . . . Defendants in their individual capacities[] only . . . [and] is not
maintaining and claims against the Town as a municipal entity,” Defs.’ SMF ffl[ 66-67.
However, in his Response to Defendants’ SMF, Plaintiff states the contradictory propositions
that he is suing Defendants in their “[individual capacities and [o]fficial capacities” but not
suing the Town itself. Resp. to Defs.’ SMF

66-67.

The Court attributes this confusion to Plaintiff failing to understand that suing a
municipal official—such as a member of the Town Board—in her or his official capacity is
tantamount to suing the municipality itself. See. e.g., Macera v. Vill. Bd. of Ilion. No. 16-CV668, 2019 WL 4805354, at *10 n.5 (N.D.N.Y. Sept. 30, 2019) (Kahn, J.). However, regardless of
whether Plaintiff actually intended to sue the Town and, thus, regardless of whether Plaintiff
knew the import of suing Defendants in their official capacities, the Town cannot be liable
through any “official capacity” claim because, as the Court explains below, Plaintiffs individual
capacity claims against each Defendant fail on their own accord. Id. at *22. (“[T]he Village
cannot be liable for conduct that the Court.. . determine^] was not a constitutional violation.”).
B. Merits
Turning to the merits of Plaintiff s claims, the Court first lays out the general
requirements for bringing a claim under § 1983. In order to maintain a claim under § 1983, a
plaintiff must establish “(1) that some person has deprived him of a federal right, and (2) that the
person who has deprived him of that right acted under color of state ... law.” Velez v. Levy. 401
F.3d 75, 84 (2d Cir. 2005) (quoting Gomez v. Toledo. 446 U.S. 635, 640 (1980) (internal
quotations omitted)); United States v. Inf 1 Bhd. of Teamsters. 941 F.2d 1292, 1295-96 (2d Cir.
1991) (“Because the United States Constitution regulates only the Government, not private

11

Case l:18-cv-00007-LEK-ATB Document 95

Filed 02/25/20

Page 12 of 23

parties, a litigant claiming that his constitutional rights have been violated must first establish
that the challenged conduct constitutes ‘state action.’”). “Section 1983 is not itself a source of
substantive rights[,] but merely provides a method for vindicating federal rights elsewhere
conferred[.]” Patterson v. County of Oneida, 375 F.3d 206, 225 (2d Cir. 2004) (quoting Baker v.
McCollan. 443 U.S. 137, 144 n.3 (1979)).
Bearing these rules in mind, the Court now addresses each of Plaintiff s claims.
1. Fourteenth Amendment Procedural Due Process5
Defendants argue that “Plaintiff had no property interest in continued employment after
December 31, 2017, and thus was not entitled to any procedural due process.” Defs.’ Mem. at 9.
The Court agrees.
The Due Process Clause of the Fourteenth Amendment contains both a procedural and
substantive component. Zinermon v. Burch, 494 U.S. 113, 125 (1990). The procedural
component bars “the deprivation by state action of a constitutionally protected interest in ‘life,
liberty, or property’ ... without due process of law.” Rotundo v. Vill. of Yorkville, No. 09-CV1262, 2011 WL 838892, at *7 (N.D.N.Y. Mar. 4, 2011) (citing Zinermon, 494 U.S. at 125). “To
establish a procedural due process violation, a plaintiff ‘must: (1) identify a property right; (2)
establish that governmental action with respect to that property right amounted to a deprivation;
and (3) demonstrate that the deprivation occurred without due process.’” Macera, 2019 WL
4805354, at *12 (quoting Rosa R. v. Connelly, 889 F.2d 435, 438 (2d Cir. 1989), cert, denied,

5 Plaintiff also purports to bring his due process claims under the Fifth Amendment.
However, “because his due process claims are against state, not federal, actors,... the
Fourteenth Amendment, rather than the Fifth Amendment, applies to these claims.” Wolff v.
State Univ. of New York Coll, at Cortland, No. 13-CV-1397, 2016 WL 9022503, at *16
(N.D.N.Y. Feb. 5, 2016) (citing Bussey v. Phillips, 419 F. Supp. 2d 569, 586 (S.D.N.Y. 2006)),
aff d sub nom. Wolff v. State Univ. of New York, 678 F. App’x 4 (2d Cir. 2017).
12

Case l:18-cv-00007-LEK-ATB

Document 95

Filed 02/25/20 Page 13 of 23

496 U.S. 941 (1990)). “Property interests are not created by the Constitution, they are created
and their dimensions are defined by existing rules or understandings that stem from an
independent source such as state law.” Facci-Brahler v. Montgomery Cty.. No. 18-CV-941, 2020
WL 360873, at *8 (N.D.N.Y. Jan. 22, 2020) (Kahn, J.) ('citing Coles v. Erie Cty.. 629 F. App’x
41, 42 (2d Cir. 2015). “In the [public] employment context, a property interest arises only where
the state is barred, whether by statute or contract, from terminating (or not renewing) the
employment relationship without cause.” S & D Maint. Co. v. Goldin. 844 F.2d 962, 967 (2d Cir.
1988). “The party asserting due process rights has the burden of establishing a legitimate
property interest in continued employment.” Jones v. Town of Whitehall. No. 13-CV-806, 2015
WL 4603511, at *5 (N.D.N.Y. July 30, 2015) (Kahn, J.).
Here, Plaintiff has failed to meet his burden of raising a genuinely disputed issue of
material fact as to whether he had a property interest in continued employment. First, Plaintiff
was not a “covered employee” under New York Civil Service Law § 75, which provides civil
service protections to certain categories of public employees. See id. at *6 (citing N.Y. Civ. Serv.
Law § 75). New York Civil Service Law § 75 does not apply to the Dog Control Officer position
because there is no evidence in the record that: “(a) the [Dog Control Officer] was ... a
competitive class position; (b) Plaintiff was . .. honorably discharged from the armed forces of
the United States; (c) Plaintiff [held] [his] position for five years continuously; (d) Plaintiff
was . . . a Homemaker or Home Aide in New York City with at least three years of continuous
service; [or] (e) Plaintiff [was] a police officer.”6 Defs.’ Mem. at 11. Indeed, Plaintiff does not

6 As Defendants make clear in their statement of material facts, Plaintiff admitted in his
deposition that he had never served in the military, never taken a civil service exam, and never
seen a civil service application or job description for the Dog Control Officer position. Defs.’
SMFffl[5,6, 10, 11.
13

Case l:18-cv-00007-LEK-ATB Document 95

Filed 02/25/20

Page 14 of 23

allege or argue that any of these categories laid out in the statute cover the Dog Control Officer
position. See generally Am. Compl.; Pl.’s Mem.7 Further, New York State Agriculture and
Markets Law § 113, which governs the appointment of local dog control officers and which
Plaintiff does cite to in his briefing, id, at 3, says nothing about the duration of appointments
made under that section or civil service protections for those appointed. See N.Y. Agric. & Mkts.
Law § 113. Nothing in these relevant statutory provisions gives Plaintiff “a legitimate property
interest in [his] continued employment.” See Jones. 2015 WL 4603511, at *6.
Without a statutory basis for his alleged property interest in continued employment,
Plaintiff must raise a triable issue of fact that he had a contractual basis for his interest. See S &
D Maint. Co.. 844 F.2d at 967. Yet here too, Plaintiff has failed to do so. Plaintiff admits that he
refused to sign the employment Agreement presented to him by the Board, Kampfer Depo. at 95,
and, in fact, admits that he had no written contract with Defendants at all. See Pl.’s Mem. at 4
(“Defendants did not have a valid written ... contract [with Plaintiff]”); Kampfer Depo. at 52. 8
Nor is there evidence in the record that any Defendant made an oral representation to Plaintiff
that he was being appointed for anything more than the remainder of Parker’s term as Dog
Control Officer. See Defs.’ SMF

19, 22, 55-56; see generally Pl.’s SMF. This undisputed

evidence dooms Plaintiffs claim.

7 Without much explanation, Plaintiff instead cites to Cleveland Bd. of Educ. v.
Loudermill, 470 U.S. 532 (1985), a case that discussed the procedural due process rights of a
public employee who enjoyed “classified civil servant” protections under Ohio law. Id, at 535.
However, because New York Civil Service Law § 75 does not apply to Plaintiffs position, and
therefore the Dog Control Officer position does not enjoy civil service protections, Cleveland
Board is inapposite.
8 « Q:

You never signed any contract with the Town of Mayfield that related to the dog
control officer position, correct?
A: No, I did not.”
14

Case l:18-cv-00007-LEK-ATB

Document 95

Filed 02/25/20

Page 15 of 23

Plaintiff may have personally believed that his appointment was “permanent,” id at 140,
and the oath of office form may not have listed the dates of Plaintiff s appointment when he
signed it, but “an employee must have more than a unilateral expectation of continued
employment” to establish a property interest sufficient to maintain a procedural due process
claim. Jones, 2015 WL 4603511, at *6. Here, it appears to be undisputed that no Defendant—or
any other town official—represented to Plaintiff that his appointment was for anything more than
the remainder of Parker’s 2017 term as Dog Control Officer, Defs.’ SMF fflj 19, 22, 42, that the
practice in Mayfield had always been to appoint the Dog Control Officer for year-long terms, id.
*[f 64, that Plaintiff had been appointed annually to his cemetery caretaker position in the past, id.
Tf 2, and that Defendants intended to appoint Plaintiff only for the remainder of Parker’s term, see
Argotsinger Deck; Putnam Deck; Van Allen Deck; Ruliffson Deck; Coletti Deck Therefore,
there is no evidence that Plaintiff had anything other than a “unilateral expectation” that his
appointment was permanent, and Plaintiff has not raised a triable issue of fact as to whether he
had constitutionally protected property interest. See Jones, 2015 WL 4603511, at *7 (no
constitutionally protected property interest where plaintiff “assert[ed] that she believed that she
could only be fired for misconduct. . . and that it was customary for other appointed employees
to be reappointed each year”). Without such a property interest, his procedural due process claim
fails. See Bd. of Regents of State Colleges v. Roth, 408 U.S. 564, 578 (1972) (where a public
employee’s appointment terminated on a certain date and there was no specific provision for
renewal after that date, the employee “did not have a property interest sufficient to require ... a
hearing when [officials] declined to renew his contract of employment”).
Further, to the extent Plaintiffs procedural due process claim is based on the Board’s
alleged failure to give him a “written appointment,” see Am. Compl. at 2, the claim also fails.

15

Case l:18-cv-00007-LEK-ATB Document 95

Filed 02/25/20

Page 16 of 23

Plaintiffs evidence, such as it is, does not raise a triable issue of fact as to whether he had a
“legitimate claim of entitlement” to receive a document memorializing his appointment as Dog
Control Officer. See Kapps v. Wing, 404 F.3d 105, 113 (2d Cir. 2005) (“[A] property interest
arises only where one has a legitimate claim of entitlement to the benefit. . . .”) (internal
quotation marks omitted). Plaintiff points to two state statutes that purportedly support his claim:
New York Agriculture and Markets Law § 113 and New York Town Law § 25. Pi’s Mem. at 4.
But neither of these statutes require the Town Board to provide an appointed Dog Control
Officer with any such writing. See generally N.Y. Agric. & Mkts. Law § 113; N.Y. Town Law
§ 25. Nor is the Court aware of any other statutory provision that would require the Board to
provide Plaintiff with the kind of “written appointment” he demands.
In support of Plaintiff s summary judgment motion he submitted excerpts from the New
York Department of Agriculture and Markets’ “Dog Control Officer & Municipal Shelter
Guide,” which says that “[a]ll appointments and/or contracts must be in writing.” PL’s SMF, Ex.
A. Yet this document specifically states that it is a “summar[y] of laws and regulations” and “not
meant to replace” them. Id. And when the Board presented Plaintiff with a contract
memorializing the terms of his appointment—as contemplated by this Guide—Plaintiff refused
to sign it. Plaintiffs claim, then, appears to be based on nothing more than a “unilateral
expectation” of receiving a different, undefined sort of “written appointment,” and no reasonable
jury could find that he had a legitimate claim of entitlement to receiving that writing. The Court
therefore grants summary judgment to Defendants.9

9 Plaintiff also lacks any claim to “unpaid” or “back” wages, as it is undisputed that he
was paid in full for the work did as Dog Control Officer from August 11, 2018 to December 31,
2017, Defs.’ SMF f 44, and the Court finds that none of his cognizable federal rights were
violated when the Board declined to reappoint him.
16

Case l:18-cv-00007-LEK-ATB

Document 95

Filed 02/25/20

Page 17 of 23

2. Fourteenth Amendment Substantive Due Process10
Defendant argues that Plaintiffs substantive due process claim fails because, once again,
Plaintiff “has not, and cannot, demonstrate any property interest in continued employment. . .
and he is unable to offer evidence of any consci[ence]-shocking state action by any Defendant.”
Defs.’ Mem. at 16. The Court agrees.
“The substantive component [of the due process clause] bars certain arbitrary, wrongful
government actions regardless of the fairness of the procedures used to implement them.”
Rotundo, 2011 WL 838892, at *7. “To establish that defendants violated plaintiffs substantive
due process rights, the Court must first inquire ‘whether a constitutionally cognizable property
interest is at stake.’” Scaccia v. Stamp, 700 F. Supp. 2d 219, 235 (N.D.N.Y. 2010) (quoting
Villager Pond. Inc, v. Town of Darien, 56 F.3d 375, 378 (2d Cir. 1995)), aff d, 447 F. App’x 267
(2d Cir. 2012). “Second, the Court must determine whether Defendants acted in an arbitrary or
irrational manner in depriving [Plaintiff] of that property interest.” Facci-Brahler, 2020 WL
360873, at *9 (internal quotation marks omitted). “With regard to the second element, ‘a plaintiff
must demonstrate that the state action was so egregious, so outrageous, that it may fairly be said
to shock the contemporary conscience.’” Doe v. Patrick, No. 17-CV-846, 2020 WL 529840, at
*8 (N.D.N.Y. Feb. 3, 2020) (Kahn, J.) (quoting Okin v. Village of Comwall-On-Hudson Police
Dep’t, 577 F.3d 415, 431 (2d Cir. 2009) (other quotation marks omitted).
As described above, Plaintiff has failed to establish a triable issue of fact as to whether he
had a constitutionally protected property interest in his position as Dog Control Officer. But even
if he had, his substantive due process claim would fail because “[t]he Second Circuit has never

10 For the same reasons as those stated above in Footnote 5, Plaintiffs substantive due
process claim purportedly brought under the Fifth Amendment fails.
17

Case l:18-cv-00007-LEK-ATB

Document 95

Filed 02/25/20 Page 18 of 23

articulated a fundamental interest in public employment giving rise to substantive due process
protection.” Mathirampuzha v. Potter. No. 08-CV-682, 2010 WL 55061, at *9 (D. Conn. Jan. 4
2010), affd sub nom. Mathirampuzha v. Donahoe, 423 F. App’x 108 (2d Cir. 2011). Further,
“other courts have explicitly declared that there is no such interest.” See Nichik v. New York
City Transit Auth., No. 10-CV-5260, 2013 WL 142372, at *12 (E.D.N.Y. Jan. 11, 2013) (citing
Nicholas v. Pa. State Univ., 227 F.3d 133, 142 (3d Cir. 2000) (joining the “great majority of
courts of appeals” in holding that “tenured public employment” is not a “fundamental property
interest entitled to substantive due process protection); McKinney v. Pate, 20 F.3d 1550, 1553,
1560 (11th Cir. 1994) (en banc) (state-created property interest in employment does not give rise
to substantive due process claim)). Additionally, where the undisputed evidence is that the Board
declined to reappoint Plaintiff because he had acted inappropriately with certain town residents,
see Argotsinger Deck U 17, there is no evidence that Defendants’ decision was so arbitrary or
outrageous that it would constitute a substantive due process violation. See Mathirampuzha,
2010 WL 55061, at *9 (“Given the legitimate reason advanced for Ms. Mathirampuzha's
termination .. . terminating her .. . hardly shocks the conscience.”). For all these reasons, the
Court grants Defendants’ summary judgment motion as to Plaintiffs substantive due process
claims.
3. First Amendment Retaliation
Defendants argue that Plaintiffs First Amendment retaliation claim fails because, as a
public employee, his speech about his role as Dog Control Officer is not protected. Defs.’ Mem.
at 18-22. The Court agrees that Plaintiffs claim fails, but grants Defendants’ motion primarily
on the basis that Plaintiff has not raised a triable issue of fact as to causation.

18

\

•v

Case l:18-cv-00007-LEK-ATB Document 95

Filed 02/25/20

Page 19 of 23

To survive a motion for summary judgment on a First Amendment retaliation claim, a
plaintiff must present evidence: “(1) that the speech or conduct at issue was protected, (2) that
the defendant took adverse action against the plaintiff, and (3) that there was a causal connection
between the protected speech and the adverse action.” Myers v. Municipality of Greene Ctv., No.
19-CV-325, 2020 WL 204296, at *5 (N.D.N.Y. Jan. 14, 2020) (Kahn, J.). A public employee’s
work-related speech is protected “when he or she is speaking ‘as a citizen upon matters of public
concern.’” Raymond v. City of New York, 317 F. Supp. 3d 746, 772 (S.D.N.Y. 2018) (quoting
Pickering v. Bd. of Educ., 391 U.S. 563, 568 (1968)). If a plaintiff establishes a triable issue of
fact as to all three elements of the retaliation claim, including that her or his speech was
delivered as a citizen on a matter of public concern, “the defendant [then] has the opportunity to
show by a preponderance of the evidence that it would have taken the same adverse employment
action even in the absence of the protected conduct.” Nagle v. Matron. 663 F.3d 100, 105 (2d
Cir. 2011).
Here, the alleged basis for Plaintiffs retaliation claim appears to be his AG Complaint
about the Board’s request that he sign an “illegal” independent contractor agreement. See Am.
Compl. at 9-10. Plaintiffs retaliation claim on this basis fails, however, because there is no
evidence of causation. The record contains no evidence that any member of the Town Board
knew about Plaintiffs complaint when they decided not to reappoint Plaintiff in December 2017.
Indeed, Plaintiff acknowledges that he has no evidence that the Attorney General’s office ever
contacted any town official about his complaint. See Resp. to Defs.’ SMF. Without any
admissible evidence that Defendants knew about his complaint, Plaintiff has not met his burden
to raise a triable issue of fact as to whether his AG Complaint caused Defendants’ decision not to
reappoint him. Cf Kim v. Columbia Univ., 460 F. App’x 23, 25 (2d Cir. 2012) (describing how

19

\

Case l:18-cv-00007-LEK-ATB

Document 95

Filed 02/25/20

Page 20 of 23

a plaintiff can show retaliation through adverse actions taken soon after an “employer[] [had]
knowledge of [the] protected activity”).
Admittedly, “a plaintiff can indirectly establish a causal connection to support
a. . . retaliation claim by showing that the protected activity was closely followed in time by the
adverse [employment] action.” Gorman-Bakos v. Cornell Coop. Extension of Schenectady
Cnty., 252 F.3d 545, 554 (2d Cir. 2001) (internal quotation marks and citation omitted).
However, without any direct evidence of retaliatory animus, the four-month time period between
Plaintiffs complaint on August 18, 2017 and the Board’s decision not to reappoint him on
December 12, 2017 is too long to establish an inference of causation. See Dillon v. Suffolk Ctv.
Dep’t of Health Servs., 917 F. Supp. 2d 196, 214 (E.D.N.Y. 2013) (“[C]ourts in this Circuit have
consistently held that a passage of more than two months between the protected activity and the
adverse employment action does not allow for an inference of causation.”).11
Nor does it appear that Plaintiff has raised a triable issue of fact as to whether his AG
Complaint was on a matter of a public concern. Speech “on a matter of public concern” “relatfes]
to any matter of political, social, or other concern to the community.” Nagle, 663 F.3d at 106
(quoting Connick v. Myers, 461 U.S. 138, 146 (1983)). Assuming for the sake of argument that
Plaintiffs AG Complaint reported an actual crime, “[n]o authority supports [the] argument that
[merely] reporting an alleged crime [necessarily] implicates matters of public concern.” Id. at
107. Here, where there is “no[] claim that the [allegedly illegal act] revealed an ongoing pattern

11 To the extent Plaintiffs retaliation claim is based on his refusal to sign the
independent contractor agreement, assuming for the sake of argument that such a refusal
constitutes protected conduct, the claim fails for the same reason. The time period between
August—when Plaintiff refused to sign the Agreement—and December—when the Board
declined to reappoint him—is too long, without other evidence of retaliatory animus, to establish
an inference of causation. Id.
20

>

Case l:18-cv-00007-LEK-ATB Document 95 Filed 02/25/20 Page 21 of 23

of conduct or even a particularly important instance of bad judgment on [the Defendant’s] part,”
Plaintiff has failed to show that the Board’s allegedly illegal attempt to get him to sign an
independent contract agreements was “a matter of public concern.” Id. at 108 (where a public
school teacher alleged that she was not granted tenure in retaliation for reporting an assistant
principal who had forged her signature, stating that “even if [the act of forgery] were criminal,
[it] had no practical significance to the general public”).
For all these reasons, the Court grants Defendants’ motion for summary judgment on this
claim.
4. Seventh Amendment
Plaintiffs third cause of action purports to bring claims under the Seventh Amendment.
See Am. Compl. at 10-11. Specifically, Plaintiff alleges that “[t]he actions of Defendant(s). . .
using the[] power of their respective offices ... to deprive the Plaintiff of his First, Fifth and
Fourteenth Amendment Rights ... so shocks the conscience of a person[] that the
Defendant(s)... are liable to the plaintiff under the Seventh Amendment. ...” Id. But Plaintiff
misunderstands the law. The Seventh Amendment “preserve[s]” “the right of trial by jury” for
certain cases brought in a federal court. See Messa v. Goord, 652 F.3d 305, 308 (2d Cir. 2011)
(citing U.S. Const, amend. VII). It does not, however, “provide^ a basis for an additional cause
of action” cognizable under § 1983. See White v. City of New York, No. 13-CV-7156, 2014 WL
4357466, at *8 n.13 (S.D.N.Y. Sept. 3, 2014). Therefore, “[t]he Court construes Plaintiffs
citation to the Seventh Amendment as support for h[is] request for a civil jury trial,” rather than
as an independent basis for relief. Li
Additionally, because Plaintiff has made no allegations—other than the statement quoted
in the previous paragraph—and submitted no evidence that his Seventh Amendment rights were

21

Case l:18-cv-00007-LEK-ATB Document 95

Filed 02/25/20 Page 22 of 23

violated, the Court dismisses any claims purportedly brought under the Seventh Amendment. See
Guttilla v. City of New York. No. 14-CV-156, 2015 WL 437405, at *10 (S.D.N.Y. Feb. 3, 2015)
(dismissing purported Seventh Amendment claim brought under Section 1983 where plaintiff
“allege [d] nothing to support a Seventh Amendment claim; she merely list[ed] that amendment
in the complaint as a source of law purportedly violated by Defendants”).
5. Eighth Amendment
Plaintiffs Eighth Amendment claim also fails as a matter of law. “The Eighth
Amendment’s prohibition of‘cruel and unusual punishment’ applies only to those who have
been convicted of a crime and sentenced, and are thus suffering the ‘punishment’ contemplated
by the Cruel and Unusual Punishment Clause.” Balkum v. Sawyer. No. 06-CV-1467, 2011 WL
5041206, at *9 (N.D.N.Y. Oct. 21, 2011); see also Jackson v. Johnson, 118 F. Supp. 2d 278, 286
(N.D.N.Y. 2000), aff d in part, dismissed in part, 13 F. App’x 51 (2d Cir. 2001) (“The Eighth
Amendment ‘was designed to protect those convicted of crimes ....’”) (quoting Whitley v.
Albers. 475 U.S. 312, 318 (1986). Plaintiff has neither alleged nor submitted evidence
demonstrating that he was convicted of, or sentenced for, any crime. Therefore, he cannot bring a
claim under the Eighth Amendment.
C. Loose Ends
Because the Court dismisses Plaintiffs claims on the above grounds, there is no need to
address Defendants’ alternative arguments as to legislative immunity, qualified immunity, or
personal involvement. See generally Defs.’ Mem. Additionally, before closing, the Court notes
here that there are some allegations in Plaintiffs summary judgment briefing that it disregards.
Specifically, Plaintiff makes several statements that appear to accuse defense counsel of
violating Plaintiffs rights. See Pl.’s Mem. at 4 (“[T]he Defendants and their attorney Gregg T.

22

\ .

Case l:18-cv-00007-LEK-ATB Document 95

Filed 02/25/20 Page 23 of 23

Johnson on May 14, 2018 engaged in a State Action to deprive myself of the Procedural Due
Process I was due on July 11, 2017, by refusing to entertain my request to settle this
matter . . . .”); Pl.’s SMF f 6. These allegations are not found in the Amended Complaint and
therefore are inappropriate to include in summary judgment briefing. See Southwick Clothing
LLC v. GFT (USA) Com.. No. 99-CV-10452, 2004 WL 2914093, at *6 (S.D.N.Y. Dec. 15,
2004) (“A complaint cannot be amended merely by raising new facts and theories in plaintiffs
opposition papers, and hence such new allegations and claims should not be considered in
resolving the [summary judgment] motion.”).
IV.

CONCLUSION
Accordingly, it is hereby:
ORDERED, that Defendants’ motion for summary judgment (Dkt. No. 86) is

GRANTED; and it is further
ORDERED, that Plaintiffs motion for summary judgment (Dkt. No. 87) is DENIED;
and it is further
ORDERED, that the Amended Complaint (Dkt. No 39) is DISMISSED in its entirety;
and it is further
ORDERED, that the Clerk shall close this action; and it is further
ORDERED, that the Clerk shall serve a copy of this Memorandum-Decision and Order
on all parties in accordance with the Local Rules.
IT IS SO ORDERED.
DATED:

February 25, 2020
Albany, New York

Lawrence E. Kahn
Senior U.S. District Judge
23

\
V

\

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

DOUGLAS E. KAMPFER
Plaintiff,

AMENDED
CIVIL RIGHTS
COMPLAINT PURSUANT
TO 42 U.S.C. 1983
and 42 U.S.C. 1981

-vs RICHARD ARGOTSINGER, Town of Mayfield
Town Supervisor and Board Member,
(Individual capacity and perpetrator )

CIVIL No. l:18-cv-007
( LEK - ATB )

JACK PUTMAN, Town of Mayfield, Town
Councilman, ( Individual capacity and facilitator )
STEVEN VAN ALLEN, Town of Mayfield, Town
Councilman,(Individual capacity and facilitator )
THOMAS RULIFFSON, Town of Mayfield, Town
Councilman,(Individual capacity and facilitator )
VINCENT COLETTI, Town of Mayfield, Town
Councilman,(Individual capacity and facilitator )

[ Plaintiff(s) demand(s) a Trial by Jury ]
Plaintiff(s) in the above-captioned action, alleges as
follows:
1.) This is a Civil action seeking Declaratory relief; and/
or damages upon a hearing after a trial by a jury to defend and
protect the rights guaranteed by the Constitution of the United
States. This action is brought pursuant to 42 U.S.C. section
1983. This Court has Jurisdiction over this action pursuant to
28 U.S.C. section 1331, 1343(3) and (4) and 2201, 42 U.S.C. 1981
28 U.S.C

section 2202.

WHY A DECLARATORY JUDGEMENT
2.)

IS NECESSARY

(a)

Because the Law Enforcement position of Dog

Control Officer is not a EMPLOYEE AT WILL position and
is a Public Officers position enforcing the sovereign
powers of the State of New York, it is a APPOINTED
position; and because municipalities such as the Town
of Mayfield do not have a written standard of policys
to guide officials, it is necessary though a DECALARTORY
JUDGEMENT to clarify the Civil Rights of the Plaintiff
as to what Procedural Due Process Rights guaranteed under
5th and 14th Amendments of the Constitution must be applied
to the Plaintiff before any appointments or wages can be
deprived of him.

(b)

There is currently a Dispute as to the Procedural

Due Process Rights Due to the Plaintiff; such as whether
the Plaintiff was due a written Appointment placed on
record on July 11

2017; whether the Plaintiff was due

Procedural Due Process on/before or after December 12,2017
Town Boards decision not to reappoint; and whether Plaintiff
was deprived wages after December 31, 2017 without Procedural
Due Process.

2

(c)

A Declaratory Judgement is needed to

clarify whether a Public Official in their
individual capacity, using their position as
a Public Official, who violates State or Federal
Laws whichrdeprives a person of their Civil
Rights under the Constitution of the United
States is liable to that person both in compensation
of damages and can be punished for that deprivation
of Civil Rights through Punitive Damages.

(d)

A Declaratory Judgement is needed to clarify

whether a Public Official in their individual
capacity, using their position as a Public Official,
who violates State or

Federal Laws which deprives

a person of their Civil Rights under the Constitution
of the United States can be held liable Criminally;
and to clarify when a deprivation of Civil Rights
becomes criminal under Federal Statute.

3

<

3.)

a.

PARTIES
Plaintiff,

Douglas E. Kampfer
P.0. Box 747
142 Kunkel Point Road
Mayfield, New York 12117

b.

Defendant

Richard Argotsinger
P.0. Box 308, 28 N. School Street
Mayfield, New York 12117

c.

Defendant

Jack Putman
P.0. Box 308, 28 N. School Street
Mayfield, New York 12117

d.

Defendant

Thomas Ruliffson
P.0. Box 308, 28 N. School Street
Mayfield, New York 12117

e.

Defendant,

Vincent Coletti
P.0. Box 308, 28 N. School Street
Mayfield, New York 12117

f.

Defendant,

Steven Van Allen
24 West Main Street
Mayfield, New York 12117

4.)

FACTS

There is a dispute between the Plaintiff Douglas E. Kampfer
and the Defendants Richard Argotsinger, Jack Putman, Thomas
Ruliffson, Vincent Coletti and Steven Van Allen as to the legality
4

of the employment of the plaintiff as the Dog Control Officer
for the Town of Mayfield without a valid written appointment
as required by State of New York Argriculture and Market Law;
and the deprivation of Procedural Due Process rights to have a
valid written appointment; and the deprivation of Procedural Due
Process rights of whether the plaintiff was entitled to NOTICE
and HEARING of a Town of Mayfield Executive Session on December
12, 2017, where the Defendants without the authority of a valid
written appointment made a decision not to reappoint the Plaintiff
to the Dog Control Position; and whether the plaintiff was denied
reappointment as a retaliation for turning Supervisor Richard
Argotsinger into the State of New York Attorney General's Office,
for attempting to get the Plaintiff to sign an illegal independent
Contractor's contract, for the Dog Control Of ficers’.'Position.
On July 11, 2017, by vote of Richard Argotsinger, Jack Putman,
Vincent Coletti and Thomas Ruliffson, Plaintiff

Douglas E.

Kampfer was appointed to the Public Office of Dog Control Officer
for the Town of Mayfield ver]bally.
That same night, at about 7:30 p.m., Plaintiff took the, oath
of office, signed the oath book before Acting Town of Mayfield
Town Clerk Nancy Parker, the oath was to uphold the Constitution
of the United States and to defend and enforce the Laws of the
State of New York. At no time was a written list of duties
accompanyed with the appointment; and at no time was the appointment
placed in writing providing administrative procedures for
termination, nor was the expiration date of the appointment placed
in a written appointment contract, or placed in any written form
as required by the State of New York Department of Agriculture

5 _

and Markets Law.
On August 11, 2017, Town Supervisor Richard Argotsinger
signed and attempted to get the plaintiff to sign a independent
contractors contract, for doing the duties of Dog Control Officer,
which the plaintiff knew was a violation of State of New York
Agriculture and Markets Law; and is a violation of State of New
York Town Law and Town of Mayfield Laws as the Dog Control position
was not placed out for bids.
On August 18, 2017, plaintiff filed a formal complaint as a
Public Officer, to the Office of the States Attorney General Eric
Schneiderman notifing the Attorney General of the actions of Town
of Mayfield Town Supervisor Richard Argotsinger.
On August 21, 2017

Plaintiff notified the Town of Mayfield

Town Board members Thomas Ruliffson, Jack Putman, Vincent Coletti,
and Steven Van Allen, that a formal complaint had been filed with
the States Attorney Generals Office; and that Supervisor Richard
Argotsinger was attempting to have the Plaintiff sign a Independent
Contractors Contract in violation to State Law and that " My intent
is to take this further, up to and including Federal Court, if any
retaliation should occur because of my Complaint tothe Attorney
General."
On November 1, 2017
Jack Putman

Plaintiff provided to Richard Argotsinger,

Thomas Ruliffson, Vincent Coletti, and Steven Van

Allen a copy of the correspondence from the Animal Health Inspectors
Debra Toth and Annette Holowka dated October 23, 2017, of the
inspection and findings of October 10

2017 which states," Towns

may not contract with individuals for Dog Control services. Dog
Control Officers must be appointed

6

On December 12, 2017

without the authority of a written

appointment; and without giving the plaintiff prior NOTICE and
pppurtunity for a HEARING , Defendants-Richard:Argotsinger, Jack
Putman, Vincent Coletti, Thomas Ruliffson and Steven Van Allen
under the disguise of Town of Mayfield authority, Defendants
Richard Argotsinger, Jack Putman, Vincent Coletti, Thomas Ruliffson
and Steven Van Allen, made a " unanimous decision " to terminate
plaintiffs appointment as Dog Control Officer, during a Executive
session.
On December 18, 2017, plaintiff receive a letter signed by
defendant Richard Argotsinger, thru the delivery of the United
States Mail Service, notifying the plaintiff that the Town of
Mayfield Town Board had made a " unanimous decision "

not to

reappoint the plaintiff to the Dog Control Officer Position and
that plaintiffs last day was December 31, 2017.
At no time was the plaintiff notified after the December 18,
2017, giving the plaintiff an oppurtunity for a hearing.
From July 11, 2017, date of the verbal appointment of the
plaintiff to the Dog Control Position, until the alleged final
date of expiration of appointment of December 31, 2017,
a written appointment provided to the plaintiff as reqiured by
the State of New York Department of Agriculture and Markets; nor
was thern a detailed employment contract provided to the plaintiff
for a term of appointment for less then lyear as required by the
Statue of Frauds, therefore there is a dispute as to the term of
of appointment of the Plaintiff.
There is also a dispute as to whether plaintiff was entitled
to a NOTICE and HEARING as to the decision made on December 12,
7

2017 to not reappoint the plaintiff to the position of Dog Control
Officer for the Town of Mayfield, together with all procedural
Due Process Rights guaranteed and provided by the 5th Amendment
and 14th Amendment of the Constitution of the United States.
From July 11,'2017 date of verbal appointment of the plaintiff
to the Public Office position of Dog Control Officer, until the
illegal termination of the appointment on December 31, 2017 there
was no communications from the State of New York Department of
Agriculture and Markets received by the plaintiff stating that
the position of the plaintiff as Dog Control Officer for the Town
Mayfield and as a Agent of the State of New'York pursuant to
Article 7 section 113 had been terminated.
On May 14, 2018, in a attempt to settle the dispute between
the defendants and the plaintiff in regards to obtaining Due
Process; and, to obtain a hearing in regards to the termination
of the plaintiff on December 12, 2017 to the Appointment of Dog
Control Officer for the Town of Mayfield, Plaintiff sent a offer
of Settlement to the attorney of record

Mr. Gregg T. Johnson

of Lemire,Johnson & Higgins, LLC,2534 Route 9, P.0. Box 2485

Malta,

New York 12020. No response to the offer was received by the
plaintiff, therefore it is believed that the offer was rejected.
Plaintiff's offer to settle the dispute requested that the
defendant's and the Town of Mayfield town Board are to provide to
the plaintiff a legal written appointment to the Dog Control position
retroactive to July 11, 2017 as required by New York State Department
of Agriculture and Markets. The offer was sent to Gregg T. Johnson
by FAX on 05/14/2018 at 13:15, from Post Mark Ship Print Inc,
61 Elwood Ave, Gloversville New York, 12087; and a v.copy of the offer
by U.S. Mail.
8

<►

CAUSES OF ACTION

4.)

FIRST CAUSE OF ACTION
The Defendant(s) Richard Argotsinger, Supervisor and Councilman;
Jack Putman, Councilman; and Steven Van Allen, Councilman; and
Thomas Ruliffson, Councilman; and Vincent Coletti, Councilman,
in their individual capacity amid in their official capacity as a
Town of Mayfield, Town Board member, having knowledge and knowing
that no written terms of employment were given to the Plaintiff
at or during the employment of the Plaintiff as Public Officer
in the Office of Dog Control, for the Town of Mayfield on July
11, 2017, or shortly thereafter which is required by the State of
New York Department of Agriculture and Markets, willfully " -•
on December 12, 2017, perpetrated and colluded with each other
and with Defendant Richard Argotsinger as Town Supervisor to deprive
the Plaintiff of his Fifth and Fourteenth Amendment Rights of
Procedural Due Process and Substantive Due Process by arbitrarily
and capriciously depriving the plaintiff the right to be notified
and given a opportunity to be heard, to present evidence, or any
other means to protect his employment as Dog control Officer for
the Town of Mayfield.

SECOND CAUSE OF ACTION

The Defendant(s) Richard Argotsinger, Supervisor and Councilman;
Jack Putman,. Councilman; and Steven Van Allen, Councilman; and
Thomas Ruliffson, Councilman; and Vincent Coletti, Councilman,
in their individual capacity and in theig capacity as a Town of
9

Mayfield, Town Board Councilman officialy, having knowlege
and knowing that the plaintiff had made a official complaint
to the office of the State of New York, Attorney General, that
Town Supervisor Richard Argotsinger had violated State and Town
Laws; by attempting to have the planitiff sign and file with
Town of Mayfield a Independent Contractor agreement contract
for services as a Dog Control Officer; willfully and knowingly
colluded and perpetrated with Town Supervisor to not renew the
appointment of the Plaintiff to the Public Office of Dog Control
Officer on the alleged termination date of December 31th 2017,
depriving the Plaintiff of the protections provided under the
First and Fourteeth Amendments of the United Constitution,
protecting whistle blowers from retaliations against Public .
officials and public employees; and for the loss of Liberties of
wages and benefits, which the Plaintiff has lost due to the
improper termination of employment.

THIRD CAUSE OF ACTION

The actions of Defendant(s) Richard Argotsinger; Jack Putman;
Steven Van Allen; Thomas Ruliffson; Vincent Coletti, using:their
power of their respective offices as Supervisor and Councilman
to deprive the Plaintiff of his First', Fifth and Fourteenth
Amendment Rights under the United States Constitution as a Public
Officer, doing his job that he took a Oath to do as Dog Control
Officer; so shocks the conscience of a person, that the Defendant(s)
Richard Argotsinger, Jack Putman, Steven Van Allen Thomas Ruliffson,
and Vincent Coletti, in their Individual Capacities and in their
- 10-

i.

*

Official capacities are liable to the plaintiff under the
Seventh Amendment of the United States Constitution

in both

capacities as the total value in controversy shall exceed twenty
dollars; together with the plaintiffs request that a jury trial
to occur in the Federal jurisdiction on these deprives rights and
controversies.
FORTH CAUSE OF ACTION

The action and decisions of Defendant(s) Richard Argotsinger
Town Supervisor and Councilman; and, Jack Putman, Councilman; and,
Steven Vanallen, Councilman; and, Thomas Ruliffson, Councilman; and
Vincent Coletti, Councilman, in their official capacity and in
their individual capacity, to deprive the plaintiff Douglas E.
Kampfer of his Fifth and Fourteeth Amendment Rights as a Public
Officer to Procedural and Substantive due process rights; and, to
deprive the Plaintiff as a Public Officer to his First and Fourteeth
Amendment rights on December 12, 2017

without the authority to do

so; and/or to retaliate against the Plaintiff as a Public Officer
for making a formal Complaint against Town Supervisor Richard
Argotsinger to the State of New York Attorney General’s Office on
August 18, 2017, by not reappointing the Plaintiff on the alleged
termintation date of December 31th 2017, on December 12, 2017
without Procedural Due Process and Substantive Due Process, is Cruel
and Unusual punishment inflicted upon the Plaintiff pursuant to
the Eight Amendment of the Constitution of the United States.

- 11

♦

♦

%

PLAINTIFFS PRAYER FOR RELIEF

5.)

Plaintiff Douglas E. Kampfer seeks from a jury of his
peers a Declaratory Judgement, clarifying and settling the legal
relation in the issue of whether the plaintiff was entitled to
Procedural Due Process of a written Appointment to the Dog Control
position for the Town of Mayfield; and whether the Plaintiff was
entitled to Procedural Due Process of a NOTICE AND HEARING before
plaintiff was refused reappointment to the position of Dog Control
Officer as prescribed by the 5th and 14th Amendments of the
Constitution of the United States.
Plaintiff seeks a Hearing after Trial on the Merits for
Damages, together with cost and disbursements, and any other
relief this Court deems just and proper.
I declare under penalty of perjury that the forgoing is
true and correct.

Dated?
\

Ma La*a, New York 12117
(518)-661-6055

12

